U.S. Department of Justice
Office of the Solicitor General

Washington, D.C. 20530

January 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Moore v. United States, No. 20-6027

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 2,
2020, and placed on the docket on October 15, 2020. The government’s response is now due,
after one extension, on January 11, 2021. We respectfully request, under Rule 30.4 of the Rules
of this Court, a further extension of time to and including February 10, 2021, within which to file
a response.
This extension is necessary because the attorneys with principal responsibility for final
preparation of the government’s response have been heavily engaged with the press of other
matters before the Court.
Because petitioner is an incarcerated federal prisoner proceeding pro se, we have not
obtained his consent to this request.
Sincerely,

Jeffrey B. Wall
Acting Solicitor General
cc:

See Attached Service List

20-6027
MOORE, MICHAEL
USA

MICHAEL MOORE
PRISONER NO. 69242018
PO BOX 1032
COLEMAN, FL 33521

